Nos. 19-251, 19-255

 

 

IN THE

Supreme Court of the United States

AMERICANS FOR PROSPERITY FOUNDATION, Petitioner,
Vv.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS
ATTORNEY GENERAL OF CALIFORNIA, Respondent.

THOMAS More LAW CENTER, Petitioner,
Vv.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS
ATTORNEY GENERAL OF CALIFORNIA, Respondent.

On Writs of Certiorari to the
United States Court of Appeals for the Ninth Circuit

BRIEF OF THE FLOYD ABRAMS INSTITUTE
FOR FREEDOM OF EXPRESSION

AT YALE LAW SCHOOL AS AMICUS CURIAE
IN SUPPORT OF NEITHER PARTY

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,943 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
